 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL



     EXCESSIVE MEDICARE
REIMBURSEMENT FOR ALBUTEROL




                        JANET REHNQUIST
                       Inspector General


                           MARCH 2002
                          OEI-03-01-00410
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                       EXECUTIVE                          SUMMARY



PURPOSE

   This report compares the amount Medicare reimburses for albuterol to the prices available to
   the Department of Veterans Affairs (VA) and to acquisition costs for suppliers.



BACKGROUND

   Medicare does not pay for over-the-counter or most outpatient prescription drugs. However,
   Medicare Part B will cover drugs that are necessary for the effective use of durable medical
   equipment. One such product, albuterol, is an inhalation drug commonly used with a nebulizer
   to treat patients suffering from asthma or emphysema. Medicare paid $296 million for
   albuterol in 2000. In general, Medicare reimburses a covered drug at 95 percent of the drug’s
   average wholesale price. Medicare payments include both the 80 percent that Medicare
   reimburses and the 20 percent coinsurance payment for which beneficiaries are responsible.

   Albuterol is usually provided to Medicare beneficiaries by suppliers, who then submit claims
   for reimbursement to Medicare. Suppliers can purchase drug products through group
   purchasing organizations, wholesalers, and directly from manufacturers. Unlike Medicare, the
   VA provides veterans with drugs purchased directly from manufacturers or wholesalers.
   There are several purchase options available to the VA, including the Federal Supply
   Schedule, blanket purchase agreements, and VA national contracts.

   We compared Medicare’s current reimbursement amount for albuterol to amounts paid by the
   VA and to acquisition costs for suppliers and wholesalers. We obtained reimbursement
   amounts for albuterol from Medicare and acquisition costs from the VA. To obtain supplier
   and wholesaler acquisition costs, we collected prices from wholesale catalogs, supplier
   invoices, and Drug Topics Red Book.




     Excessive Medicare Reimbursement for Albuterol
                                                                                     OEI-03-01-00410


                                                      i
FINDINGS

Medicare and its beneficiaries would save $264 million a year if albuterol were
reimbursed at the median price paid by the VA

      The Medicare reimbursement amount for albuterol is more than nine times greater than the VA
      price. The VA purchases generic albuterol through the Federal Supply Schedule for a median
      price of only $0.05 per milligram (mg), while Medicare reimburses at
      $0.47 per mg. We estimate that Medicare and its beneficiaries would save $264 million a
      year if reimbursement for albuterol were set at the median amount available to the VA.
      Medicare beneficiaries would receive $53 million of this savings through reduced coinsurance
      payments. Based on the Federal Supply Schedule, the VA’s median acquisition cost for
      albuterol has fallen by more than 50 percent over the last three years, from $0.11 per mg in
      1998 to $0.05 per mg in 2001. During the same time period, Medicare’s reimbursement
      amount has remained constant at $0.47 per mg.

Medicare and its beneficiaries would save between $226 million and $245 million
a year if albuterol were reimbursed at prices available to suppliers

      Medicare’s reimbursement amount for albuterol was nearly six times higher than the median
      catalog price. Like the VA, catalog prices for albuterol have fallen over the last several years,
      from $0.23 per mg in 1996 to its current median price of $0.08 per mg. We found that
      Medicare would save $245 million a year by basing albuterol reimbursement on the current
      median catalog price. In addition, we found that the median supplier invoice price was $0.09
      per mg, and the median wholesale acquisition cost reported by manufacturers was $0.11 per
      mg. If Medicare based albuterol reimbursement on these prices, the program and its
      beneficiaries would save between $226 million and $239 million a year.

Less than one percent of albuterol suppliers were responsible for providing the
majority of the product to Medicare beneficiaries in 2000

      Medicare reimbursed 6,522 suppliers for albuterol claims in 2000. However, just 34 of these
      suppliers received more than $1 million each in Medicare reimbursement for albuterol in 2000,
      with five having between $11 million and $35 million in paid claims. These 34 suppliers, who
      all provided home-delivery/mail-order services to beneficiaries, received 63 percent of the
      Medicare payments for albuterol in 2000. Therefore, the majority of the albuterol supplied to
      Medicare beneficiaries was provided by suppliers that purchase a large quantity of the



        Excessive Medicare Reimbursement for Albuterol
                                                                                           OEI-03-01-00410


                                                         ii
     product. We believe that suppliers that purchase albuterol in such large quantities may receive
     volume discounts from manufacturers and wholesalers.



RECOMMENDATION

Medicare should reduce excessive reimbursement amounts for albuterol

     Despite numerous attempts by the Centers for Medicare & Medicaid Services (CMS) to
     lower reimbursement amounts for prescription drugs, the findings of this report illustrate that
     Medicare still pays too much for albuterol. We have consistently found that the published
     average wholesale prices currently used by Medicare to establish reimbursement amounts bear
     little or no resemblance to actual wholesale prices that are available to suppliers and large
     government purchasers.

     We understand that unlike most drugs covered by Medicare, albuterol is usually provided by
     suppliers rather than administered by physicians. These suppliers obviously need to make a
     profit from the products they provide, yet the spread between what Medicare reimburses for
     albuterol and the price at which suppliers are able to purchase the drug is significant.
     Reimbursement levels for albuterol not only impact the Medicare program, but also affect
     Medicare beneficiaries who pay increased coinsurance amounts.

     We offer the following options for reducing excessive reimbursement amounts for covered
     drugs:

     <           Authorizing a commission to set payment rates.

     <	          Calculating national estimated acquisition costs based upon the average manufacturer
                 prices reported to the Medicaid program.

     <	          Collecting more accurate average wholesale prices from drug pricing catalogs or other
                 sources.

     <           Increasing the discount off the published average wholesale prices.

     <           Basing payment on physician/supplier acquisition costs.



          Excessive Medicare Reimbursement for Albuterol
                                                                                           OEI-03-01-00410


                                                           iii
    <          Establishing manufacturers’ rebates similar to those used in the Medicaid program.

    <          Creating a fee schedule for covered drugs based on the Federal Supply Schedule.

    <          Using CMS’ inherent reasonableness authority.

    <          Using competitive bidding.




Agency Comments

    The CMS agreed that the amounts being reimbursed for drugs in the Medicare program are
    excessive, and that it is clear that the payment system for outpatient drugs needs revision. The
    agency noted that it must find a way to ensure that the program pays appropriately for all
    Medicare benefits, including covered drugs and the services required to furnish those drugs.
    The CMS went on to state that they are looking forward to working with the Congress and the
    OIG to revise the Medicare payment system for prescription drugs.




        Excessive Medicare Reimbursement for Albuterol
                                                                                         OEI-03-01-00410


                                                         iv
                                TABLE                   OF            CONTENTS

                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . I


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

          Department of Veterans Affairs Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Supplier Acquisition Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Suppliers Reimbursed by Medicare . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8




RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES


          A. Selected OIG Reports on Drug Reimbursement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          B. Calculation of Potential Savings for Albuterol . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          C. Centers for Medicare & Medicaid Services Comments . . . . . . . . . . . . . . . . . . . . . . . . 13





             Excessive Medicare Reimbursement for Albuterol
                                                                                                                       OEI-03-01-00410


                                                                  v
                                INTRODUCTION

PURPOSE

      This report compares the amount Medicare reimburses for albuterol to the prices available to
      the Department of Veterans Affairs (VA) and to acquisition costs for suppliers.



BACKGROUND

Medicare Coverage of Albuterol

      Medicare does not pay for over-the-counter or most outpatient prescription drugs. However,
      Medicare Part B will cover drugs that are necessary for the effective use of durable medical
      equipment. One such product, albuterol, is an inhalation drug commonly used with a nebulizer
      to treat patients suffering from asthma or emphysema. Albuterol is usually provided to
      beneficiaries by suppliers, who then submit claims for reimbursement to Medicare. Medicare
      paid $296 million for the unit dose form of albuterol in 2000. This total represents over 43
      percent of the $683 million Medicare paid for all inhalation drugs that year. Medicare
      payments include both the 80 percent that Medicare reimburses and the 20 percent
      coinsurance payment for which beneficiaries are responsible.

Medicare Drug Reimbursement

      The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
      program, contracts with four durable medical equipment regional carriers to process all claims
      for durable medical equipment and associated supplies, including inhalation drugs. Each
      carrier is responsible for determining the reimbursement amount for inhalation drugs in their
      respective region based on Medicare’s reimbursement methodology.

      Medicare’s current reimbursement methodology for prescription drugs is defined by Section
      4556 of the Balanced Budget Act of 1997. The carriers base their reimbursement amount for
      a covered drug on its average wholesale price as published in Drug Topics Red Book or
      similar pricing publications used by the pharmaceutical industry. If a drug is available only as a
      single brand-name product, reimbursement is calculated by taking 95 percent of the drug’s
      average wholesale price. For drugs like albuterol that have both brand and generic sources

        Excessive Medicare Reimbursement for Albuterol
                                                                                            OEI-03-01-00410


                                                         1

available, reimbursement is based on 95 percent of the median average wholesale price for
generic sources. However, if a brand-name product’s average wholesale price is lower than
the median generic price, Medicare reimburses 95 percent of the lowest brand price.




  Excessive Medicare Reimbursement for Albuterol
                                                                               OEI-03-01-00410


                                                   2
Recent Attempts to Lower Medicare Drug Reimbursement

     Section 4316 of the Balanced Budget Act of 1997 allows the Department of Health and
     Human Services to diverge from Medicare’s statutorily defined payment method if the method
     results in payment amounts which are not inherently reasonable. In late 1998, CMS regional
     carriers attempted to use this authority to lower what it considered excessive reimbursement
     for several items. One of these items was albuterol, which was targeted for an 11 percent fee
     reduction. However, the lower reimbursement amounts were never implemented as Congress
     suspended the use of inherent reasonableness through a provision of the Medicare, Medicaid,
     and SCHIP Balanced Budget Refinement Act of 1999. This provision required (1) the
     General Accounting Office (GAO) to complete a study on the potential effects of using
     inherent reasonableness measures, and (2) the Department of Health and Human Services to
     publish new inherent reasonableness regulations based on the findings of the GAO report. The
     GAO report, issued in July 2000, found that inherent reasonableness reductions for some
     items were justified; however, the GAO questioned the methodology the carriers used in their
     collection of pricing data for albuterol. The Department has not issued any new inherent
     reasonableness regulations since the publication of the GAO report.

     The CMS has also included albuterol and several other inhalation drugs in a competitive
     bidding project in the San Antonio, Texas area that uses market forces to set accurate prices
     for durable medical equipment and related supplies. In November 2000, CMS announced the
     selection of suppliers who had submitted competitive bids for the included items. New prices
     for these items went into effect on February 1, 2001. The new reimbursement amount for
     albuterol set by the competitive bidding process is approximately 32 percent below the usual
     Medicare price. The CMS hopes to use the results from these demonstrations more generally
     in the Medicare program.

     On May 31, 2000, CMS announced plans for Medicare to utilize newly available average
     wholesale prices for approximately 50 drugs, including albuterol. The new prices were
     developed for Medicaid through investigations conducted by the Department of Justice and the
     National Association of Medicaid Fraud Control Units. The revised pricing data was obtained
     from wholesale pricing catalogs and then provided to First DataBank, publisher of a pricing
     compendium used by the pharmaceutical industry. First DataBank agreed to use the new data
     when reporting average wholesale prices to the States. However, the Medicare, Medicaid,
     and SCHIP Benefits Improvement and Protection Act of 2000, enacted by Congress in
     December 2000, placed a moratorium on any decreases in Medicare drug reimbursement
     amounts. The Act required GAO to complete a comprehensive study addressing both the
     appropriateness of drug reimbursement amounts and the adequacy of current payments for
     related practice expenses. The Department of Health and Human Services must then revise
     CMS’ drug reimbursement methodology based on GAO’s recommendations.
       Excessive Medicare Reimbursement for Albuterol
                                                                                      OEI-03-01-00410


                                                        3

      The GAO issued the first of two reports addressing drug pricing issues on September 21,
      2001. This report found that physicians and suppliers can obtain covered drugs for
      substantially less than the Medicare reimbursement amount. The GAO concluded that
      Medicare should revise its drug payment methodology to more closely reflect available market
      prices. The second report, released October 31, 2001, found that payments made to
      oncologists relative to their practice expenses are close to the average for all specialties, and
      that the payments are 8 percent higher under the physician fee schedule then under the
      previous method that reimbursed based on the charges physicians billed for services.
      However, the GAO also found that recent modifications to the physician fee schedule
      substantially lowered payments for certain services, including chemotherapy administration.
      The GAO recommended changes to improve Medicare’s physician payment system.

Department of Veterans Affairs Drug Reimbursement

      Unlike Medicare, the Department of Veterans Affairs (VA) purchases drugs for its healthcare
      system directly from manufacturers or wholesalers. There are several options available to the
      VA when purchasing drugs, with the most common being the Federal Supply Schedule. The
      Federal Supply Schedule provides agencies like the VA with a simple process for purchasing
      commonly used products in any quantity while still obtaining the discounts associated with
      volume buying. Using competitive procedures, contracts are awarded to companies to
      provide supplies over a given period of time at the Federal Supply Schedule price. However,
      the VA is sometimes able to negotiate prices lower than Federal Supply Schedule amounts
      through other avenues such as blanket purchase agreements and VA national contracts.

Cost of Drugs for Suppliers

      Suppliers can purchase drug products through group purchasing organizations, wholesalers,
      and directly from manufacturers. Group purchasing organizations provide their members with
      lower cost products by negotiating prices for specific drugs from manufacturers. The member
      can then purchase drugs at the negotiated price either directly from the manufacturer or from a
      wholesaler who accepts the group purchasing organization’s price. Wholesalers purchase
      large volumes of drugs from manufacturers and sell them directly to suppliers.

Related Work by the Office of Inspector General

      The Office of Inspector General (OIG) has studied a number of issues relating to Medicare
      drug reimbursement. Brief summaries of selected studies are presented in Appendix A.



        Excessive Medicare Reimbursement for Albuterol
                                                                                           OEI-03-01-00410


                                                         4

METHODOLOGY

Medicare Reimbursement

     Medicare classifies drugs using codes in the Healthcare Common Procedure Coding System.
     These codes, commonly referred to as procedure codes, define the type of drug and, in most
     cases, a dosage amount. There are currently two procedure codes for albuterol, one for a unit
     dose solution and another for a concentrated solution. Because nearly all of the billing for
     albuterol is for the unit dose form of the drug, we only reviewed the reimbursement amounts
     for the unit dose code. The term “unit dose” refers to a 3 milliliter (ml) solution of 0.083
     percent albuterol. The procedure code for the unit dose form of albuterol is J7619. This code
     is defined as, “albuterol, all formulations including separated isomers, inhalation solution
     administered through durable medical equipment, unit dose form, per 1 milligram (mg).” We
     obtained current fee schedule reimbursement amounts for procedure code J7619 from the four
     durable medical equipment regional carriers. The reimbursement amount for albuterol was the
     same for each of the four carriers.

     We accessed CMS’ National Claims History File to determine Medicare’s total payments for
     albuterol and other inhalation drugs in 2000. We also used this file to analyze albuterol
     supplier data for the year 2000.

Matching Procedure Codes to National Drug Codes

     The VA and suppliers use national drug codes rather than procedure codes to identify drug
     products. Because of these coding differences, we used the April 2001 CD-ROM edition of
     Drug Topics Red Book to identify the specific national drug codes that match the procedure
     code definition for albuterol. Each drug manufactured or distributed in the United States has a
     unique national drug code. National drug codes identify the manufacturer of the drug, the
     product dosage form, and the package size. Because Medicare uses only generic versions of
     albuterol to determine its reimbursement amount, we only selected generic albuterol national
     drug codes. We found 19 national drug codes for generic albuterol that matched the
     procedure code definition of J7619.

     The procedure code for the unit dose form of albuterol is reimbursed per mg. However, VA
     prices and wholesale prices were all based on 3 ml vials of 0.083 percent albuterol solution.
     Consequently, we needed to convert ml prices of albuterol into mg prices. A 3 ml vial of
     0.083 percent albuterol solution contains 2.5 mg of albuterol. Therefore, 1 ml of solution
     contains 0.833 mg of albuterol (2.5 divided by 3). For each national drug code, we multiplied


       Excessive Medicare Reimbursement for Albuterol
                                                                                        OEI-03-01-00410


                                                        5

      the number of milliliters of albuterol solution by 0.833 to determine the milligram amount, e.g.,
      75 ml of solution multiplied by 0.833 equals 62.5 mg. We then divided the drug price by the
      number of milligrams to determine a per mg price.

Department of Veterans Affairs Prices

      To determine the VA’s current costs for albuterol, we obtained a file from the VA website
      containing their 2001 contracted prices. The VA pricing file contained Federal Supply
      Schedule prices for 11 of the 19 matching albuterol national drug codes. To determine a
      single VA price, we calculated the median price per mg for these 11 codes.

      We also compared the 2001 VA prices to VA prices in the years 1998 through 2000. We
      determined the percentage change each year in VA prices, and multiplied this number by the
      amount Medicare paid in a given year. These figures represent the amount Medicare total
      payments would have increased or decreased if the Medicare reimbursement amount changed
      at the same rate as the VA price. In order to estimate this figure for 2001, we assumed that
      2001 Medicare payments for albuterol would equal 2000 payments.

Prices Available to Suppliers and Wholesalers

      To determine actual wholesale prices for albuterol, we reviewed year 2001 print and online
      catalogs from four drug wholesalers and two group purchasing organizations. The six pricing
      sources we used provide drug products to suppliers and physician practices. We then
      computed a single catalog price for albuterol by calculating the median price per mg of the
      corresponding national drug codes.

      In addition to catalog prices, we also used actual albuterol invoices to determine supplier
      acquisition costs. The invoices were collected by the OIG during a review of inhalation drug
      utilization. The invoices were obtained during site visits to suppliers throughout the country,
      and were for albuterol purchased between June 1998 and August 2000. To determine a
      single invoice price, we calculated the median price per mg for the 91 invoice prices collected
      from suppliers.

      We also obtained manufacturer-reported wholesale acquisition costs from the April 2001 CD-
      ROM edition of Drug Topics Red Book. The Drug Topics Red Book defines wholesale
      acquisition cost as manufacturer-quoted list prices to wholesale distributors; these prices are
      not reflective of bids, rebates, volume purchase agreements, or other types of exclusive
      contracts. Eleven of the 19 albuterol national drug codes had wholesale acquisition costs


        Excessive Medicare Reimbursement for Albuterol
                                                                                            OEI-03-01-00410


                                                         6

      reported in 2001. From these costs, we calculated a median per mg wholesale acquisition
      cost for albuterol.




Calculating Potential Medicare Savings

      To calculate potential Medicare savings, we compared Medicare’s reimbursement amount for
      1 mg of albuterol to VA prices, wholesale acquisition costs, catalog prices, and invoice prices.
      We determined the percentage difference in prices by subtracting the median source price
      from the Medicare price, and then dividing this number by the Medicare price. These
      percentages indicate how much Medicare would save if reimbursement for albuterol were
      based on prices provided by other sources. We then multiplied these percentages by the total
      amount Medicare paid for albuterol in 2000 to calculate dollar savings. A table showing the
      data used to calculate potential savings is presented in Appendix B.

                                                 _____________

      This inspection was conducted in accordance with the Quality Standards for Inspections
      issued by the President’s Council on Integrity and Efficiency.




        Excessive Medicare Reimbursement for Albuterol
                                                                                          OEI-03-01-00410


                                                         7

                                              FINDINGS

Medicare and its beneficiaries would save $264 million a year
if albuterol were reimbursed at the price paid by the VA

The Medicare reimbursement amount for albuterol is over nine times greater than
the median VA price

         The median Federal Supply Schedule price available to the VA for generic albuterol is only
         $0.05 per mg, compared to $0.47 per mg for Medicare. We estimate that Medicare and its
         beneficiaries would save $264 million a year if reimbursement for albuterol were set at the
         median amount paid by the VA under the Federal Supply Schedule. The savings represent 89
         percent of the $296 million Medicare paid for albuterol in 2000.

         Medicare beneficiaries would receive $53 million of the $264 million in savings through
         reduced coinsurance payments. A Medicare beneficiary using a typical monthly amount of
         albuterol (250 mg) would pay $23.50 in Medicare coinsurance. That coinsurance amount is
         nearly double what the VA would pay outright ($12.50) to purchase one month’s supply of
         the drug. Table 1 below compares the Medicare reimbursement amount to median prices
         available through other sources. It also provides Medicare savings and beneficiary
         coinsurance based on various reimbursement levels.

                                  TABLE 1: COMPARISON OF ALBUTEROL PRICES

                                                                            Monthly Medicare         Potential Annual
                                        Median          Cost of Typical        Beneficiary             Medicare and
                                        Price         Individual Monthly    Coinsurance Based          Beneficiary
 Pricing Source                          per mg         Usage (250 mg)       on Source Price             Savings

 Medicare                                 $0.47              $117.50              $23.50                    N/A

 Department of Veterans Affairs           $0.05              $12.50                $2.50                $264,222,803

 Wholesale Catalogs                       $0.08              $20.00                $4.00                $245,349,746

 Supplier Invoices                        $0.09              $22.50                $4.50                $239,058,727

 Wholesale Acquisition Cost               $0.11              $27.50                $5.50                $226,476,689

Sources: 2001 Medicare Carrier and Department of Veterans Affairs Websites, 2001 Wholesale Catalogs, 1998-2000 Supplier
Invoices Collected by OIG, 2001 Drug Topics Red Book

            Excessive Medicare Reimbursement for Albuterol
                                                                                                           OEI-03-01-00410


                                                               8

Between 1998 and 2001, the median VA cost for albuterol decreased by over 50
percent, while the Medicare reimbursement amount remained the same

      The VA price for albuterol has fallen by more than 50 percent over the last three years, from
      $0.11 per mg in 1998 to $0.05 per mg in 2001. During the same time period, Medicare’s
      reimbursement amount (based on reported average wholesale prices) has remained constant at
      $0.47 per mg. If the Medicare reimbursement amount for albuterol decreased at a rate equal
      to the VA’s purchase price, Medicare and its beneficiaries would have saved $68 million in
      1999 and $108 million in 2000. The program could save another $161 million in 2001. The
      graph below illustrates the changes in VA and Medicare pricing over the last 3 years.

                                     GRAPH 1: COMPARISON OF ALBUTEROL PRICES, 1998-2001

                     $0.50


                     $0.45            $0.47                  $0.47               $0.47                  $0.47


                     $0.40


                     $0.35


                     $0.30
      Price per mg




                     $0.25
                                                                                             Medicare

                     $0.20                                                                   VA Median


                     $0.15


                     $0.10
                                      $0.11

                     $0.05                                   $0.08
                                                                                 $0.07
                                                                                                        $0.05

                     $0.00
                                      1998                    1999                2000                   2001
                                                                       Year




                             Sources: Medicare Carrier and Department of Veterans Affairs Websites

                     Excessive Medicare Reimbursement for Albuterol
                                                                                                                OEI-03-01-00410


                                                                      9

Medicare and its beneficiaries would save between
$226 million and $245 million a year if albuterol were
reimbursed at prices available to wholesalers and suppliers

Medicare payments for albuterol would be reduced by 83 percent if
reimbursement amounts were based on prices listed in wholesale catalogs

      Medicare and its beneficiaries would save $245 million a year if the reimbursement amount for
      albuterol equaled the median price available to suppliers through wholesalers and group
      purchasing organizations. This represents 83 percent of the $296 million Medicare and its
      beneficiaries reimbursed for the drug in 2000. Catalog prices for generic albuterol ranged
      from a low of $0.07 per mg to a high of $0.15 per mg. The Medicare reimbursement amount
      ($0.47 per mg) was nearly six times more than the median catalog price ($.08 per mg).

      Like VA prices, catalog prices for albuterol have gone down over the last several years. In
      earlier reports, we found that the average catalog price for albuterol was $0.23 per mg in
      1996, and $0.13 per mg in 2000. The current catalog price of $0.08 per mg of albuterol is 65
      percent less than the catalog price of the drug five years earlier.

Medicare payments for albuterol would be reduced by 81 percent if
reimbursement amounts were based on supplier invoice prices

      Invoices reviewed by the OIG listed prices ranging from $0.08 to $0.14 per mg for albuterol
      purchased by suppliers between 1998 and 2000. The median price for albuterol purchased
      by these suppliers was $0.09 per mg, 81 percent less than the Medicare reimbursement
      amount. Medicare and its beneficiaries would save $239 million a year if albuterol were
      reimbursed at the median invoice price.

Medicare payments for albuterol would be reduced by 77 percent if
reimbursement amounts were based on manufacturer-reported wholesale
acquisition costs

      Published wholesale acquisition costs for albuterol ranged from $0.09 to $0.18 per mg in April
      2001. The median wholesale acquisition cost was $0.11 per mg. Individual drug
      manufacturers reported these wholesale acquisition costs to Drug Topics Red Book. The
      Drug Topics Red Book defines wholesale acquisition cost as manufacturer-quoted list prices

        Excessive Medicare Reimbursement for Albuterol
                                                                                        OEI-03-01-00410


                                                         10

         to wholesale distributors, not reflective of bids, rebates, volume purchase agreements, or other
         types of exclusive contracts.
If Medicare based its reimbursement for albuterol on manufacturer-reported wholesale acquisition
costs rather than average wholesale prices, the program and its beneficiaries would save $226 million
a year.



Less than one percent of albuterol suppliers were
responsible for providing the majority of the product to
Medicare beneficiaries in 2000

        Medicare reimbursed 6,522 suppliers for albuterol claims in 2000. However, just 34 of these
        suppliers received more than $1 million each in Medicare reimbursement for albuterol in 2000,
        with five having between $11 million and $35 million in paid claims. These 34 suppliers, who
        all provided home-delivery/mail-order services to beneficiaries, received 63 percent of the
        Medicare payments for albuterol in 2000. Therefore, the majority of the albuterol supplied to
        Medicare beneficiaries was provided by suppliers that purchase a large quantity of the
        product. We believe that suppliers that purchase albuterol in such large quantities may receive
        volume discounts from manufacturers and wholesalers.




          Excessive Medicare Reimbursement for Albuterol
                                                                                             OEI-03-01-00410


                                                           11

                            RECOMMENDATION

Medicare should reduce excessive reimbursement amounts for albuterol

     Despite numerous attempts by the Centers for Medicare & Medicaid Services (CMS) to
     lower reimbursement amounts for prescription drugs, the findings of this report illustrate that
     Medicare still pays too much for albuterol. We have consistently found that the published
     average wholesale prices currently used by Medicare to establish reimbursement amounts bear
     little or no resemblance to actual wholesale prices that are available to suppliers and large
     government purchasers.

     We understand that unlike most drugs covered by Medicare, albuterol is usually provided by
     suppliers rather than administered by physicians. These suppliers obviously need to make a
     profit from the products they provide, yet the spread between what Medicare reimburses for
     albuterol and the price at which suppliers are able to purchase the drug is significant.
     Reimbursement levels for albuterol not only impact the Medicare program, but also affect
     Medicare beneficiaries who pay increased coinsurance amounts.

     We offer the following options for reducing excessive reimbursement amounts for covered
     drugs:

     <           Authorizing a commission to set payment rates.

     <	          Calculating national estimated acquisition costs based upon the average manufacturer
                 prices reported to the Medicaid program.

     <	          Collecting more accurate average wholesale prices from drug pricing catalogs or other
                 sources.

     <           Increasing the discount off the published average wholesale prices.

     <           Basing payment on physician/supplier acquisition costs.

     <           Establishing manufacturers’ rebates similar to those used in the Medicaid program.

     <           Creating a fee schedule for covered drugs based on the Federal Supply Schedule.


          Excessive Medicare Reimbursement for Albuterol
                                                                                           OEI-03-01-00410


                                                           12

<          Using CMS’ inherent reasonableness authority.

<          Using competitive bidding.




    Excessive Medicare Reimbursement for Albuterol
                                                           OEI-03-01-00410


                                                     13
Agency Comments

    The CMS agreed that the amounts being reimbursed for drugs in the Medicare program are
    excessive, and that it is clear that the payment system for outpatient drugs needs revision. The
    agency noted that it must find a way to ensure that the program pays appropriately for all
    Medicare benefits, including covered drugs and the services required to furnish those drugs.
    The CMS went on to state that they are looking forward to working with the Congress and the
    OIG to revise the Medicare payment system for prescription drugs. The full text of CMS’
    comments is presented in Appendix C.




      Excessive Medicare Reimbursement for Albuterol
                                                                                        OEI-03-01-00410


                                                       14

                                                                                  APPENDIX A


               Selected OIG Reports on Drug Reimbursement


Medicare Reimbursement of Prescription Drugs (OEI-03-00-00310), January 2001. We found

that Medicare and its beneficiaries would save $1.6 billion a year if 24 drugs were reimbursed at

amounts available to the VA. We also found that Medicare would save             $761 million a year by

paying the actual wholesale price for 24 drugs.


Medicare Reimbursement of Albuterol (OEI-03-00-00311), June 2000. We found that

Medicare and its beneficiaries would save $120 million or $209 million a year if albuterol was

reimbursed at amounts available through Medicaid and the VA, respectively. Medicare and its

beneficiaries would save $47 million or $115 million a year if Medicare reimbursed albuterol at prices

available at chain and Internet pharmacies.


Comparing Drug Reimbursement: Medicare and the Department of Veterans Affairs

(OEI-03-97-00293), November 1998. We found that Medicare and its beneficiaries would save $1

billion in 1998 if the allowed amounts for 34 drugs were equal to prices obtained by the VA. 

Furthermore, Medicare allowed between 15 and 1600 percent more than the VA for the 34 drugs

reviewed.


Are Medicare Allowances for Albuterol Sulfate Reasonable? (OEI-03-97-00292), 

August 1998. We found that Medicare would allow between 56 to 550 percent more than the VA

would pay for generic versions of albuterol sulfate in 1998, and 20 percent more than the average

Medicaid payment for albuterol sulfate in 1997. We also found that Medicare allowed 333 percent

more than available acquisition costs for the drug in 1998. Customers of mail-order pharmacies would

pay up to 30 percent less than Medicare for albuterol sulfate in 1998.


Excessive Medicare Payments for Prescription Drugs (OEI-03-97-00290), December 1997. 

We found that Medicare allowances for 22 drugs exceeded actual wholesale prices by           $447

million in 1996. For more than one-third of the 22 drugs reviewed, Medicare allowed amounts were

more than double the actual wholesale prices available to physicians and suppliers. Furthermore, we

found that there was no consistency among Medicare carriers in establishing and updating drug

reimbursement amounts. 


A Comparison of Albuterol Sulfate Prices (OEI-03-94-00392), June 1996. We found that

many of the pharmacies surveyed charged customers less than the Medicare allowed amount for

generic albuterol sulfate. The five buying groups surveyed had negotiated prices between 56 and 70

percent lower than Medicare’s reimbursement amount for the drug.

          Excessive Medicare Reimbursement for Albuterol
                                                                                           OEI-03-01-00410


                                                           15

                                                                                   APPENDIX A


Suppliers’ Acquisition Costs for Albuterol Sulfate (OEI-03-94-00393), June 1996. We found
that Medicare’s allowances for albuterol sulfate substantially exceeded suppliers’ acquisition costs for
the drug. The Medicare program could have saved $94 million of the $182 million allowed for
albuterol during the 14-month review period if Medicare reimbursement amounts had been based on
average supplier invoice costs.




          Excessive Medicare Reimbursement for Albuterol
                                                                                            OEI-03-01-00410


                                                           16

                                                                                             APPENDIX
                                                                                             B


                       Calculation of Potential Savings for Albuterol


(1)	       To determine percentage differences in albuterol prices, we subtracted the source price from the
           Medicare price. We then divided this number by the Medicare price.

(2)	       To calculate potential savings, we multiplied Medicare’s 2000 total payments ($295,677,899)
           for albuterol by the percentage difference in price.



                                                                                                    Potential
                                                                  Median   Medicare   Percentage   Medicare and
                                              Range of per        Price     Price     Difference   Beneficiary
       Price Source                            mg Prices          per mg    per mg     in Price*     Savings

       Department of Veterans
                                             $0.05 to $0.10        $0.05     $0.47      89.4%      $264,222,803
       Affairs

       Wholesale Catalogs                    $0.07 to $0.15        $0.08     $0.47      83.0%      $245,349,746

       Supplier Invoices                     $0.08 to $0.14        $0.09     $0.47      80.9%      $239,058,727

       Wholesale Acquisition Cost            $0.09 to $0.18        $0.11     $0.47      76.6%      $226,476,689

   *Percentage rounded to the nearest tenth




                 Excessive Medicare Reimbursement for Albuterol
                                                                                                     OEI-03-01-00410


                                                                  17

                                                        APPENDIX
                                                        C


Centers for Medicare & Medicaid Services Comments





 Excessive Medicare Reimbursement for Albuterol
                                                             OEI-03-01-00410


                                                  18

                                                      APPENDIX
                                                      C




Excessive Medicare Reimbursement for Albuterol
                                                           OEI-03-01-00410


                                                 19
